HHS/OIG-Audit--"Review of Legal Adm Costs Incurred by the New York State Dept of Social Services and by the New York State Dept of Law on Behalf of the New York State Dept of Social Services"(CIN A-02-95-02006)"
&
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Legal and Administrative Costs Incurred by the New York State Department of Social Services and by the
New York State Department of Law on Behalf of the New York State Department of Social Services" (A-02-95-02006)
September 26, 1997
Complete
Text of Report is available in PDF format (1.8 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the legal and related administrative costs incurred by the New York
State Department of Social Services (NYSDSS) and by the New York State Department of Law (NYSDOL) on behalf of NYSDSS.
This review was requested by the Department of Health and Human Services (DHHS), Division of Cost Allocation (DCA). The
primary objectives of our review were to determine if the legal and administrative costs allocated to Federal programs
in the period April 1, 1990 through June 30, 1995 were reasonable, allocable and allowable. In addition, DCA requested
we verify that New York State did not claim the legal and administrative costs relating to its December 20, 1994 training
contract settlement agreement with the Department of Justice, the Office of Inspector General, and DCA.
In general, we found that the legal and administrative costs claimed for Federal reimbursement by NYSDSS in our audit
period were allowable as claimed. Although we found that both NYSDSS' Bureau of Deferrals and NYSDOL's Affirmative Litigation
Unit incurred costs which are unallowable for Federal reimbursement, we are not recommending any financial adjustments
for costs claimed in our audit period as discussed in the Findings and Recommendations section of this report. However,
we are recommending that NYSDSS refund $1,334,849 ($593,174 Federal share) for claimed costs which related to a Memorandum
of Understanding (MOU) between NYSDSS and NYSDOL. In our opinion, NYSDSS' claiming of the MOU costs circumvented a prior
agreement between DCA and NYSDOL and also was contrary to the cost principles contained in Office of Management and Budget
Circular No. A-87. We further found that the MOU costs included expenses which are not eligible for Federal financial participation.
Our recommended adjustment is discussed in more detail in the Findings and Recommendations section.
Lastly, we found that NYSDSS had properly adjusted its Central Office Cost Allocation Claim (COCAC) for the legal and
administrative costs which related to the December 20, 1994 settlement agreement.
We are recommending that the NYSDSS refund $1,334,849 ($593,174 Federal share), and that NYSDSS calculate and refund legal
and administrative costs claimed under the MOU for the period subsequent to our review.
The State did not concur with our recommendation to refund $593,174 to the Federal Government for improper claims identified
under the MOU for the period April 1, 1993 to June 30, 1995. Also, the State did not comment on the reports recommendation
that NYSDSS calculate and refund legal and administrative costs claimed under the MOU for the period subsequent to our
review.